                                                                                                                --
                                                                                                                h     x



                                                       NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

        Case Number: A09040033                                                                      Page 1 of 1


                The complainant1 served as a reviewer for the subject^'^ proposal3 and alleged that the reviewed
                proposal improperly took ideas from a previous award4. There was no copied text of value in the
                subject's proposal, only similar strategies and goals. After expert review of the proposals, it was
                determined that the two proposals were sufficiently different in the approach and topics of
                interest. Consequently, no intellectual theft occurred.

                Therefore, this case is closed.




I




I



I




I
I


~
I




        NSF OIG Form 2 (11102)

    .
